HHS/OIG-Audit--"Review of Medicare Home Health Services in Florida, (A-04-99-01195)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Home Health Services in Florida," (A-04-99-01195)
March 14, 2001
Complete
Text of Report is available in PDF format (1.7 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that, based on our statistical sample, at least $38.3 million of $649.8 million in Florida
home health agency (HHA) claims for the 9-month period ending September 30, 1998 were unallowable or highly questionable.
The majority of the unallowable claims were, in our opinion, the result of inadequate physician involvement. We found physicians
did not always review or actively participate in developing the plans of care they signed. Among other things, we recommended
that the Health Care Financing Administration (HCFA) revise Medicare regulations to require certifying physicians to examine
patients before ordering home health care services and see the patient at least once every 60 days. The HCFA did not concur
with this recommendation, believing the new prospective payment system for home health services will significantly reduce
the incentive to provide unnecessary services. However, the OIG has identified the lack of physician involvement as a long-standing
problem significantly contributing to improper claims and payments. Consequently, we continue to emphasize the need for
corrective action in this regard.